<html>
<title> - THE SYRIAN HUMANITARIAN CRISIS: FOUR YEARS LATER AND NO END IN SIGHT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  THE SYRIAN HUMANITARIAN CRISIS: FOUR YEARS LATER AND NO END IN SIGHT

=======================================================================



                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                 
                        GLOBAL HUMAN RIGHTS, AND
                        
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                      
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2015

                               __________

                            Serial No. 114-7

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               
                               
                                 ______
                                 
        
                     U.S. GOVERNMENT PUBLISHING OFFICE 

93-286 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York

                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Kelly Tallman Clements, Deputy Assistant Secretary, Bureau of 
  Population, Refugees, and Migration, U.S. Department of State..     9
Mr. Thomas Staal, Acting Assistant Administrator, Bureau for 
  Democracy, Conflict and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Kelly Tallman Clements: Prepared statement...................    11
Mr. Thomas Staal: Prepared statement.............................    20

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    48
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Statement for the record by Ms. 
  Sharon Waxman, Vice President for Public Policy and Advocacy, 
  International Rescue Committee.................................    50

 
  THE SYRIAN HUMANITARIAN CRISIS: FOUR YEARS LATER AND NO END IN SIGHT

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Africa, Global Health,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 1:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on Middle East and North 
Africa) presiding.
    Ms. Ros-Lehtinen. With all due apologies to the members who 
are not here yet, I am going to start because pretty soon we 
will be going back into the session and be voting. So, thank 
you very much. I know that the members will be coming right 
quick. When they come here, I will recognize them for their 
opening statements.
    So, the joint subcommittees will come to order.
    After recognizing myself, Chairman Smith, Ranking Members 
Deutch and Bass, as soon as they come for 5 minutes each for 
our opening statements, I will, then, recognize any other 
members seeking recognition for 1 minute<greek-l>s deg.. We 
will, then, hear from our witnesses.
    Without objection, the witnesses' prepared statements will 
be made a part of the record, and members may have 5 days in 
which to insert statements and questions for the record, 
subject to the length limitation in the rules.
    Before I begin my opening remarks, I want to take a moment 
to offer our most sincere condolences to the friends and family 
of Kayla Mueller. Our thoughts and prayers are with them in 
this most trying of times. Kayla was taken hostage while doing 
humanitarian work in Syria, which is the subject of our 
hearing, helping those who are in such dire need of her help. 
All of America mourns her loss and the family's loss.
    The terrorists have proven time and again that they have no 
respect for human rights, and that is why we must redouble our 
efforts to defeat this scourge and its radical ideology. 
Kayla's legacy will be the work that she had done to alleviate 
the suffering of a countless many in Syria and around the 
world.
    It is important that our Government will continue to 
respond to this humanitarian crisis, but also that we will make 
the respect for human rights across the globe a priority and 
not just an afterthought.
    With that, the Chair now recognizes herself for 5 minutes.
    Next month will mark the fourth anniversary since the start 
of the Syrian conflict, and there are no signs that the crisis 
will abate anytime soon. Assad has demonstrated no remorse, 
and, indeed, his intransigence has only hardened as he 
maintains his grasp on power and the enclaves of Syria, thanks 
to the support from Iran and the United States' unwillingness 
to engage both ISIL and Assad in a comprehensive strategy. ISIL 
and other terror groups have managed to wrest control of other 
large areas of Syria, and they, too, have no intention of 
giving up the territory they have claimed.
    Since President Obama announced strikes against Syria last 
September, ISIL has actually gained more territory. That leaves 
little territory for those Syrians who wish to flee the 
fighting and flee the violence. What we are seeing unfold in 
Syria is one of the worst humanitarian crises in the region in 
recent memory, and it isn't just limited to Syrian and Iraq. 
Jordan and other neighboring countries have been forced to bear 
the brunt of a massive influx of refugees fleeing the fighting. 
That has tested the limits of their already-strained 
capabilities.
    Last Congress Ranking Member Ted Deutch and I convened four 
hearings on the humanitarian situation in Syria. One we were 
pleased to join with Congressman Smith's and Congresswoman 
Bass' subcommittee in an effort to continue to shine a light on 
this aspect of the conflict that gets ignored.
    When we held our first subcommittee hearing on the 
situation Syria, 80,000 Syrians has been killed and 1.5 million 
people had been displaced. Less than 2 years later, those 
numbers have swelled. Over 200,000 have been killed, more than 
3 million have fled, and now more than half of Syria's 
population is in dire need of humanitarian assistance.
    The U.S. has been the largest provider of humanitarian 
assistance in response to the crisis, providing much-needed aid 
to Syria, to Iraq, to Jordan, and other countries that have 
been severely impacted by this crisis. We have spent over $3 
billion since the start of the conflict, and the President's 
budget request, released last week, is seeking an additional 
$1.6 billion to address the humanitarian needs in Syria and in 
Iraq.
    While some of this goes directly to the neighboring 
countries that host refugees and directly to the NGOs, the vast 
majority of our funding for Syria supports multilateral 
initiatives through the United States. I worry that some of the 
assistance we provide that goes to the U.N. and its 
implementing partners might get diverted to ISIL or other 
terrorist groups or the Assad regime by force or through 
bribes, in order to gain access to certain areas.
    While I understand there are some very real and dangerous 
obstacles in place to reaching the maximum amount of people, 
Americans are concerned over where this $5 billion is going, 
especially if most of it could be going through third and 
fourth parties, as evidence shows that it is.
    There have been reports that some of the humanitarian 
assistance is going through middlemen in Syrian when the 
implementing partners can't get access to the locations that 
they are trying to reach. More recently, food rations have been 
handed out by the World Food Program, and they are tagged with 
the Islamic State symbol.
    So, there are some very real and pressing problems that 
need to be corrected. Congress and the administration, we have 
a responsibility to the American public to be good stewards of 
their tax dollars. So, it is imperative that we find the right 
balance of efficiency and transparency. Our comprehensive 
strategy toward Syria must take into effect the humanitarian 
crisis that we are confronting today.
    That is why it is so important, it is imperative, that we 
hold these hearings not only to hear from the vital work that 
we are doing and the lives that we are saving, but also conduct 
our proper oversight role. It is also why I was joined this 
week by Ranking Member Deutch, Mr. DeSantis, and Mr. Connolly 
in sending a request to the Government Accountability Office, 
GAO, requesting a report to ensure that our aid is reaching its 
intended recipients and to get a better understanding regarding 
our visibility into the large sums of money that we send 
through the U.N.
    The Syrian humanitarian crisis is not a problem that is 
going away anytime soon, not until we defeat ISIL and Assad, 
and Assad is removed from power. But the U.S. cannot afford to 
continue to provide billions indefinitely. It is imperative 
that we have confidence that what we are providing is not 
subject to waste, fraud, abuse, or diversion to terror groups, 
so that we can continue playing a key role in responding to 
this crisis and maximize our effectiveness.
    With that, I am proud to yield to the ranking member of our 
subcommittee, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    I, too, would like to associate myself with the chairman's 
remarks about the tragic death of Kayla Mueller at the hands of 
the barbaric ISIS terrorists. Our thoughts and prayers go out 
to Kayla's family and friends during this difficult time. 
Please know that we will continue to honor Kayla's memory and 
her life's work by giving this humanitarian crisis the 
attention that it deserves.
    I want to thank the chairman for starting this Congress 
with a hearing specifically focused on the humanitarian aspect 
of the Syrian conflict, a followup to four humanitarian-focused 
hearings that we held last Congress.
    The title of this hearing speaks volumes to the situation 
inside Syria and in neighboring countries. There is no end in 
sight. Members had the opportunity to discuss the political and 
security components of this conflict in the full Foreign 
Affairs Committee this morning, but this afternoon we are here 
to focus on the growing humanitarian crisis.
    There are now 2.2 million people in need of humanitarian 
assistance. As Mr. Staal's testimony notes, that is the 
populations of New York City and Los Angeles, the two largest 
cities in the United States combined. There are 3.8 million 
refugees in neighboring countries. There are 241,000 people in 
besieged areas inside Syria. There are 9.8 million people who 
are food insecure. Madam Chairman, these numbers are truly 
staggering.
    The situation inside Syria has complicated the ability of 
humanitarian organizations to effectively deliver aid. Despite 
the first authorization of cross-border aid deliveries in the 
United Nations Security Council Resolution 2165, it is becoming 
increasingly difficult to get aid safely into the country and 
to its intended recipients.
    Deputy Assistant Secretary Clements, I hope you will speak 
to the effectiveness of cross-border and cross-line aid. We 
continue to engage in a political process that is yet to even 
yield a sustainable truce inside Syria, an effort that would at 
least help deliver aid to those with the most critical needs.
    Syrian refugees have flooded into Jordan, Lebanon, and 
Turkey at a staggering rate. Jordan has 622,000 registered 
refugees, and in Lebanon the Syrian refugees now make up one-
fourth of the population. These overwhelming numbers do not 
even include potentially hundreds of thousands of unregistered 
refugees that have been absorbed into urban areas. We have got 
to continue to support these host communities and help to 
mitigate the understandable strain that it places on their 
resources.
    The United States has now provided over $3.5 billion in 
humanitarian assistance. We are the largest individual donor. I 
offer my full support of continued humanitarian funding for 
this crisis, but I also want to make sure that our aid is 
effective and not falling into the wrong hands.
    I was troubled by reports last week that showed ISIS 
fighters handing out U.N. food packages. That is why, as 
Chairman Ros-Lehtinen had mentioned, I joined with her and 
Congressmen Connolly and DeSantis in commissioning a GAO 
report, so we can be absolutely sure that the proper mechanisms 
are in place to spend our aid dollars most effectively.
    I have got to say I have been shocked and truly dismayed 
throughout this crisis at the lack of financial support coming 
from the international community. Last year only half of the 
U.N. budget was funded. These unfulfilled pledges of assistance 
led to the World Food Program literally having to stop its 
operations while an emergency fundraising campaign took place. 
That is unacceptable.
    I recognize that most of us were unprepared to deal with a 
protracted crisis. Now, after 4 years, we are at risk of losing 
an entire generation; 5.6 million children have been affected.
    We have seen the outbreak of formerly eradicated diseases 
like polio, simply because infants and children couldn't get 
vaccinations. Refugee children have been absorbed into 
unfamiliar school systems, many of which didn't have the staff 
or resources necessary to shoulder these additional students. 
Many have been forced to abandon school altogether and find 
work to help support their families.
    Women and children have borne the brunt of this 
humanitarian crisis. I hope that Mr. Staal can address some of 
the programs that we are funding aimed at protecting these 
vulnerable populations.
    Before I close, I want to remind everyone of one critical 
factor. Despite the horrific brutality of ISIS and its 
devastating attacks in Syria and Iraq and against American and 
other Western citizens, it is still the ruthless Assad regime 
that remains the biggest threat to the Syrian people. We may 
share a common enemy in ISIS, but we are not partners with this 
deadly regime that has the blood of hundreds of thousands of 
its own people on its hands.
    Finally, I want to commend the work of State and USAID. 
This is a tremendous challenge, and we recognize the work you 
do is not easy. The work of your partners on the ground who 
risk their lives to help those in need deserves to be 
recognized in this body and in capitals around the world every 
day.
    I thank our witnesses for being here.
    Ms. Ros-Lehtinen. Very good. Thank you, Mr. Deutch.
    I am so pleased to yield to the subcommittee chairman, 
Chairman Smith, who has made it his life's mission to fight 
human rights violations and to spearhead humanitarian missions. 
Thank you, Mr. Chairman.
    Mr. Smith. Madam Chair, thank you so very much. It is an 
honor and a privilege to join you, for both of our 
subcommittees to be receiving this testimony and really 
broadcasting to all who will hear our solidarity with the 
victims, those men, women, and children who are being savagely 
beaten and killed and raped and tortured by Assad and by other 
players and other actors in Syria. So, thank you again for 
pulling us together for this hearing.
    As we all know, since the beginning of the Syrian conflict 
in 2011, the U.N. estimates that more than 200,000 have been 
killed. It would be terrible enough if we could count the dead 
in Syria as collateral damage from a civil war gone completely 
out of control. Unfortunately, the truth is far more horrific 
than that.
    According to the U.N., the government of Bashar al-Assad 
initiated the conflict to crush the opposition to his brutal 
rule. In the process, he has used chemical weapons, barrel 
bombs, and other weapons of mass destruction to kill his own 
people. This regime has been involved in widespread killings, 
including children, torture, again, against children, as well 
as hospital patients, arbitrary arrests and imprisonment on a 
massive scale, deployment of tanks and helicopter gunships in 
densely-populated areas, heavy and indiscriminate shelling of 
civilian areas, enforced disappearances, systematic destruction 
of property and looting, systematic denial of food and water in 
some areas, and prevention of medical treatment, again, 
including children. So depraved has the Assad regime been, that 
it has been reported to have indiscriminately shelled bakeries 
with artillery rounds, even though the targets were civilian, 
and not military, targets.
    David Nott, a British volunteer surgeon in Syria, reported 
in 2013 that ``Victims of government snipers would display 
wounds in a particular area of the body on particular days,'' 
indicating that they may have been targeted in a gruesome game.
    The Syrian Government came to view doctors and nurses as 
collaborators because they were willing to help rebels in need 
of medical care. Early on in the conflict, the Assad regime 
imprisoned hundreds of health workers and tortured many of them 
to death. Others have just disappeared. Government forces 
targeted health workers in medical facilities in attacks, 
erasing the universal principle of medical neutrality.
    However, the government isn't the only perpetrator of human 
rights violations in Syria. The U.N. reports that armed 
opposition groups, including militia supporting the Assad 
regime, have been responsible for unlawful and indiscriminate 
killings, tortured abuse, including hostage-taking. One rebel 
commander told the Associated Press that his group had released 
prisoners in bomb-rigged cars, turning them into unwitting 
suicide bombers. Other groups have perpetrated crimes too 
egregious to present today in detail.
    In addition to armed groups such as the Free Syrian Army 
and the Syrian Revolutionaries Front, al-Qaeda and its 
offshoot, including al-Nusra Front, ISIS, operate within this 
conflict committing heinous crimes against those unable to 
leave Syria.
    We know--and this was in the testimony by the Deputy 
Assistant Secretary Clements--half of its prewar population in 
Syria has been displaced. Half of a country gone, displaced, 
and that is almost without precedent anywhere in the world.
    The Euro-Mediterranean Human Rights Network reported in 
late 2013 that at least 6,000 women have been reported being 
raped by one armed group or another, and that the genuine 
figure was likely much higher due to underreporting. In fact, 
the International Rescue Committee reported 2 years ago that 
the primary reason for Syrians to flee their country has been 
fear of rape.
    The various armed groups terrorizing people in Syria 
operate with impunity. Since Syria is not a party to the Rome 
Statute, the International Criminal Court has no jurisdiction 
over these human rights violators, although there could be a 
referral, if they were so inclined, from the Security Council. 
Even if the ICC could get involved, Russia has already 
indicated its opposition to that kind of referral.
    That is why again I introduced last year--and I will do it 
again soon--a resolution to create an independent tribunal to 
begin the process of investigating human rights crimes in Syria 
and bring to reality the promise of justice to those who now 
have no fear of any kind of accountability. It would be 
patterned on what we had in Yugoslavia, Rwanda, and, of course, 
the Independent Court in Sierra Leone.
    The tribunal would prosecute the perpetrators of mass 
atrocities, war crimes, and crimes against humanity, no matter 
who committed the crime. Hopefully, these individuals would be 
brought to justice.
    Again, I want to thank you, Madam Chair, for doing this 
hearing together with our subcommittees and for your 
extraordinary leadership.
    Ms. Ros-Lehtinen. Thank you so much, a powerful statement.
    Because Ms. Bass, the ranking member of Mr. Smith's 
committee, is not here, I would like to recognize Ms. Frankel 
and Mr. Boyle to share those 5 minutes, however way you would 
like to divide them.
    Ms. Frankel is recognized.
    Ms. Frankel. Thank you, Madam Chair. I thank both you and 
the ranking member for this hearing, which I believe is very 
important.
    I want to share your sentiments on or sorrow for the loss 
of Kayla Mueller.
    We have heard from the administration, obviously, in the 
past several months why we should train and arm Syrian rebels. 
We now have a request for authorization for the use of military 
force. So, I am very pleased that you are here to talk about--
it is a little change of pace; let's put it that way.
    This is what I am particularly interested in, not only the 
type of humanitarian assistance and answering some of the 
questions about whether we are effectively getting it to those 
who are suffering, but I am also interested in your opinion as 
to the role that humanitarian assistance in the larger goal of 
defeating those forces like Assad, like ISIL, that are causing 
the pain.
    Then, what else I would be interested in, especially in 
light of what happened to Kayla Mueller, is how safe it is for 
our AID workers in delivering this humanitarian assistance.
    I thank you, and I will yield the rest of my time to Mr. 
Boyle.
    Ms. Ros-Lehtinen. Mr. Boyle is recognized.
    Mr. Boyle. Thank you very much.
    I have to say, being on the Foreign Affairs Committee and 
this subcommittee for the last 6 weeks, I keep waiting until we 
get to have hearings about good news. I suspect that we would 
be waiting a very long time.
    The scale of the human tragedy that has taken place in 
Syria is unbelievable, now over 12 million human beings, 12 
million people, who have been dislocated. This has created 
enormous instability not just in Syria, but, obviously, in 
northern Iraq and in other nearby areas.
    I would just ask--and a lot of my comments were echoed 
earlier--so, rather than being repetitive, I would just ask 
that, when you are giving your statements, while this subject 
might be specifically about Syria, this is part of a regional 
fight, part of a fight that King Hussein of Jordan said has 
been going on for approximately 1,400 years, I would like you 
to talk about, to the extent that you are knowledgeable about 
it, the stability of the regime in Jordan. Because with being 
bordered with Israel and what was going on last summer in Gaza 
and the disruptions to a lesser extent in the West Bank, and 
then, of course, what is going on, a de facto Shia-Sunni civil 
war, and, also, at the same time a war between those who 
believe in a very radical militant, violent form of Islam and 
those who do not, with all that going in the region, we have 
one little island of stability smack dab in the middle there. I 
am deeply concerned, and you do not hear about this much, but I 
am deeply concerned that the Syrian conflict, if it were to 
spread to the West, would finally topple one of the few regimes 
that we can actually count on as an ally. So, I hope that when 
you give your comments, you will broaden it and talk about that 
a bit.
    I thank the Madam Chair. It is an honor to be on her 
subcommittee. I thank the ranking member.
    Also, to say this in person, I have watched the human 
rights work that Chairman Smith has done for many, many years, 
and am a big admirer of it. It is great to be a part of this.
    Ms. Ros-Lehtinen. It is an honor to have you. Thank you 
very much.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chairman, for calling this 
important joint hearing.
    The violence in Syria over the past 4 years has spiraled 
out of control, as we know, yielding a serious and grave 
humanitarian crisis. It was in August 2012 that the President 
famously declared the red line. However, today nearly 200,000 
people have been senselessly killed, over 3 million are 
refugees in neighboring countries, with millions more 
internally displaced, and we are no closer to ending this 
humanitarian tragedy.
    As this work continues, I believe that this crisis will, 
unfortunately, only get worse. The refugee flows into Jordan, 
Lebanon, and Turkey have hardly diminished, and these countries 
are at their peak in terms of the numbers that they can 
support. At the same time, unprecedented numbers are streaming 
into Syria to join ISIL and other extremist groups, which are 
further complicating and exacerbating this situation.
    As the U.S. is the largest contributor of humanitarian 
assistance, we need to implement a strategy that most 
effectively deals with this growing crisis, while ensuring 
those in most need are receiving our support. Various reports 
have indicated that U.S. assistance is reaching the hands of 
ISIS and other terrorist groups, and that is very alarming.
    I hope that today's witnesses will discuss what is being 
done to address this issue and all the other things my 
colleagues have mentioned. There is, indeed, a lot to talk 
about today.
    Thank you, Madam Chair, and I yield back the balance.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Mr. Trott is recognized. Dr. Yoho is recognized.
    Mr. Yoho. Thank you, Madam Chair. I just want to say I look 
forward to hearing your information, so that we can come to 
some common-sense solutions to the Middle East over there and 
work with the AUMF and the President to get some resolution.
    With that, I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    So now, we turn to our witnesses. Let me introduce our 
panelists.
    First, we are pleased to welcome Deputy Assistant Secretary 
Kelly Clements of the Bureau of Population, Refugees, and 
Migration at the Department of State. She was detailed to the 
Office of the U.N. High Commissioner of Refugees in Bangladesh 
and has served on the State Department's Task Force on Kurdish 
Refugees and Displaced Persons. She has also been a Special 
Assistant to the Under Secretary of State for Global Affairs 
and a Senior Emergency Office for Europe during the Balkan 
crisis.
    Welcome.
    Then, we will also hear from Acting Assistant Administrator 
Thomas Staal of the Bureau of Democracy, Conflict, and 
Humanitarian Assistance at USAID. He has served in USAID since 
the late eighties and has managed project developments in 
eastern and southern Africa as well as in the West Bank and 
Gaza. More recently, he has served as the Director of the Iraq 
Reconstruction Office here in Washington, DC, and as Mission 
Director in Lebanon, Ethiopia, and Iraq.
    Excellent panelists.
    We will begin with you, Ms. Clements.
    The prepared statements will be made a part of the record.

   STATEMENT OF MS. KELLY TALLMAN CLEMENTS, DEPUTY ASSISTANT 
SECRETARY, BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Ms. Clements. Thank you so much, Chairman Ros-Lehtinen, 
Ranking Member Deutch, Chairman Smith, and members of the 
committee, for inviting us to this very important hearing on 
humanitarian assistance for those imperiled and uprooted by the 
worst human-made catastrophe of our time.
    I have submitted my full testimony for the record, and I am 
grateful for the opportunity to update you and to thank you for 
your leadership and to Congress for its unwavering support.
    The Syrian crisis has claimed nearly 200,000 lives, 
forcibly displaced half of Syria's prewar population of 24 
million people. Almost 4 million have fled to neighboring 
countries and many will remain in exile for years to come.
    The Assad regime and extremist groups target innocent 
civilians already suffering from food shortages, inadequate 
shelter, and preventable diseases. Right now, 12.2 million 
people inside Syria need urgent humanitarian aid, and half of 
them are children.
    The humanitarian response has been the most expensive in 
modern history, and the needs have outstripped available 
resources. Although U.N. humanitarian appeals have grown 
exponentially, the total amount pledged has plateaued. The 2014 
appeals were just over half-funded, as you noted earlier.
    The United States remains the single largest donor and has 
contributed over $3 billion since the crisis began. In 2014, my 
Bureau at the State Department provided more than a third of 
all funding for the Syrian humanitarian response. That $725 
million is the largest single-year contribution in our Bureau's 
history. Roughly half of all U.S. humanitarian aid has gone to 
conflict victims inside Syria and half to refugees and 
communities hosting them.
    Over the last 6 months, U.N. Security Council Resolutions 
2191, 2139, 2165 enabled U.N. convoys to cross borders and 
battle lines and to reach millions of civilians in 
governorates, including Dar'a, Idlib, Quneitra, and Aleppo that 
have been encircled, blockaded, and under siege.
    In 2014, the U.N. Refugee Agency provided aid to more than 
one out of every three Syrians in need, including 1 million 
people in difficult-to-reach areas. USAID feeds nearly half of 
all Syrian refugees, roughly 2 million people, and provides 
relief items, everything from cooking pots to shoes and 
blankets to insulated tents to help refugee families survive 
the winter. Our programs aid survivors of gender-based 
violence, elderly and disabled people, unaccompanied children, 
and others who need services and protection. With U.S. support, 
in 2014, the U.N. and its strong NGO partners were able to 
triple the number of Syrian children enrolled in school.
    But vast needs remain. Half of Syrian children are still 
not in school. Last week Tom Staal and I saw thousands of them 
while visiting the Domiz Camp in the Iraqi Kurdistan region. It 
is bursting at the seams with an official tally of 35,000, but 
far more are seeking services not available in overwhelmed host 
communities.
    Heroic efforts are underway to educate, feed, shelter, and 
clothe the displaced, but everything is in short supply. More 
than eight in ten Syrian refugees live outside of camps, 
straining host communities across a region that was already 
economically fragile and politically volatile. Syrian refugees 
are crowded into communities in Turkey, Lebanon, Jordan, Iraq, 
and Egypt. In Lebanon, one in four residents is now a refugee. 
In Jordan, housing shortages have doubled rents; schools and 
hospitals are overcrowded; municipal services cannot keep up; 
tensions are rising, and beleaguered governments have responded 
by closing or tightly managing borders.
    To ease these pressures, the Department and USAID are 
coordinating humanitarian and development assistance and 
funding projects that provide important services, clean water, 
sanitization, education, and economic opportunities to both 
host communities and refugees.
    We have encouraged other donors to come forward, and many 
have been generous, including Saudi Arabia and Kuwait. The 
United States is also accelerating resettlement of Syrian 
refugees. We have received referrals from over 10,000 Syrian 
refugees and expect to admit between 1,000 and 2,000 this 
fiscal year and many more in 2016 and beyond.
    Thank you very much for your support, and I welcome your 
questions.
    [The prepared statement of Ms. Clements follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Ms. Clements.
    Mr. Staal?

STATEMENT OF MR. THOMAS STAAL, ACTING ASSISTANT ADMINISTRATOR, 
  BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN ASSISTANCE, 
           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Staal. Chairman Ros-Lehtinen, Ranking Member Deutch, 
Chairman Smith, and members of the subcommittees, thank you for 
the opportunity to testify today and for highlighting the needs 
of the Syrian people and the needs of the people in their 
neighborhood. For me, it is especially important because I grew 
up in the area and I have lived and worked there for many 
years.
    As Deputy Assistant Secretary Clements has mentioned, and 
many of you know, the Syrian crisis is the largest and most 
complex humanitarian emergency of our time. More than 2.2 
million Syrians are in need of humanitarian assistance. You 
mentioned New York and Los Angeles. It is also just about the 
entire population of the State of Pennsylvania, is another way 
to look at it.
    We continue to do everything possible to help those most in 
need, and our FY16 request that you mentioned, the USAID piece 
of it at $735 million for the Syrian humanitarian response 
demonstrates that continued commitment.
    Now 4 years into this conflict, Syrians see no end in sight 
to the violence. ISIL's abuses, including the death of Kayla 
Mueller you mentioned, have been layered on top of the Assad 
regime's indiscriminate killings and barrel bombings.
    Our partners are heroically working through all possible 
channels, often at considerable risk, to reach those in need, 
including in regime areas, in opposition- and ISIL-controlled 
areas of Syria. For over 3 years, we have provided emergency 
care to nearly 2 million patients at 300 U.S.-supported health 
facilities throughout the area. I saw some of those patients 
myself last week at a hospital in Jordan.
    Thanks to the aggressive vaccination campaign, by the 
number of polio cases in Syria is now down to zero. We have 
improved water and sanitation for 1.3 million Syrians, 
repairing water networks, installing latrines and bathrooms in 
camps. These efforts have helped to prevent the spread of 
disease.
    And then, for the third year we are working tirelessly to 
help the most vulnerable cope with winter, especially those who 
are living in makeshift homes and tents. So far, we have 
distributed blankets, warm clothing, plastic sheeting to almost 
\1/2\ million people. We have also distributed air heaters and 
put up windows and doors to help insulate homes.
    We know that women and children are the most impacted in 
this crisis. And so, we also prioritize and integrate their 
protection into all of our humanitarian assistance efforts.
    As you mentioned, the United States is the largest donor, 
and including the largest food donor, to the crisis, providing 
more than $1.1 billion worth to date to feed more than 4.8 
million people inside Syria and 1.7 million in the neighboring 
countries. The food vouchers we provide to Syrian refugees so 
that they can buy locally have also injected about $1 billion 
into the economies of Lebanon and Jordan, Turkey, Egypt, and 
Iraq. In fact, within Jordan, it equals to about .7 percent of 
their GDP. And we have a robust system for monitoring our 
humanitarian assistance to ensure that it does, indeed, get to 
the most in-need people for whom it is intended.
    We know that Syria's neighbors are stretched beyond 
capacity. That is why we are also helping, working in host 
communities, in cooperation with our State Department 
colleagues, to build resilient systems that can withstand the 
increased demand on services from the flow of refugees into 
their countries.
    In Jordan, for instance, we are working to conserve water. 
With the Complex Crisis Fund resources, we have built cisterns 
to collect rainwater in 90 schools in Jordan and provided more 
than 2,200 no-interest loans, so that families can install 
rainwater-harvesting systems. These efforts have saved 200,000 
cubic meters of water, equal to 5.5 million showers.
    In Lebanon, we are working to decrease tensions between 
host communities and refugees. Following clashes recently 
between militants and Lebanese armed forces in Tripoli, our 
partners worked with the community to rehabilitate the old city 
and involved young people to reduce the appeal to extremism.
    So, we are doing everything we can, but important 
challenges remain. Constrained access, insecurity, including 
targeted attacks against humanitarian workers, are a prime 
challenge. As Kelly mentioned, we are working with donors to 
try to jointly meet the overwhelming needs for resources.
    Despite many challenges, we remain committed to saving 
lives and to helping host communities, recognizing this is a 
long-term crisis.
    Thank you for your support. Thank you for this hearing. And 
again, I look forward to your questions.
    [The prepared statement of Mr. Staal follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                     ----------                              

    Ms. Ros-Lehtinen. Thank you. Our members thank you for your 
service, your dedication, your hard work in responding to this 
serious humanitarian crisis unfolding before us.
    As you both have said, the United States plays a critical 
role in the international response as the largest donor 
country, having contributed more than $3 billion. But, as I 
mentioned earlier, we also have a responsibility to ensure that 
we are being good stewards of U.S. taxpayer money and that 
these funds are being used to maximize efficacy and 
transparency.
    How much of that $3 billion has gone directly to 
neighboring countries or directly to NGOs and implementing 
partners on the ground, and how much has gone through 
multilateral initiatives through U.N. appeals? I will ask you 
to respond.
    It seems that the majority of our assistance, from what I 
have read, actually goes to the U.N. and third-party 
implementing partners. Also, while it was positive that the 
U.N. Security Council passed Resolutions 1239 and 2165 calling 
upon all parties to allow delivery of humanitarian assistance 
and authorizing the U.N. to carry out relief delivery across 
these conflict lines, that is really a fanciful notion to think 
that the Assad regime, ISIL, al-Nusra, other belligerent actors 
are actually going to adhere to these resolutions. Yet, since 
those resolutions passed, the U.S. has been going into the war 
zones and the most difficult-to-reach areas of Syria.
    How are these resolutions of full access being enforced? We 
have seen reports that ISIL and others have gotten some of this 
assistance or that implementing partners are forced to go 
through middlemen to get to some of these most dangerous areas. 
Do we have an idea of how much of our assistance is being co-
oped by these belligerent actors or going through middlemen? 
What kind of visibility do we have? How can we ensure that the 
billions of dollars that we are providing are reaching the 
intended recipients and not falling into the wrong hands? And 
also, do we have any oversight over these U.N. agencies 
operate? Is there a transparency or reporting requirements for 
the agencies or implementing partners or is it more of a case 
of, well, our responsibility ends once we hand the money over 
to the U.N.? Finally, what are the reporting requirements for 
the NGOs directly funded by the U.S. Government? Do we have 
enough oversight mechanisms? Are they sufficient?
    Thank you.
    Mr. Staal. Thank you, Chairman Ros-Lehtinen.
    That is a critical question. I am really glad you brought 
it up because I think we actually have a good news story there.
    It is always important that our aid gets to the right 
people. We realize the challenges in this crisis. So, we have 
actually upped the ante and increased our systems for 
overseeing that. So, in addition to the regular quarterly and 
annual reports, we actually require now weekly reports from our 
partners, where they identify particular issues.
    Remember, in Syria we are working with partners that are 
experienced. They have worked in these kinds of areas before 
and know how to work in these areas. They are careful about 
taking risk, but they also understand the importance of 
oversight.
    So, they have instituted multiple systems to ensure that 
oversight. They work through local partners, but ones that they 
know. They get their regular reports.
    But, in addition to that, because it is a relatively-
sophisticated society--Syria was a middle-income country really 
and people have cell phones, and so on--so, we actually have a 
system where, when food is delivered, they can send a picture 
taken from the cell phone with the barcode so we know exactly 
where it went and when it arrived.
    Ms. Ros-Lehtinen. Well, thank you. Let me interrupt you 
here a second.
    Mr. Staal. We have got multiple systems like that going on.
    Ms. Ros-Lehtinen. Let me ask about a majority of 
assistance. Does it go through to the U.N. and third-party 
implementing partners or directly to the partner?
    Ms. Clements. Thank you for that question, Chairman.
    About 72 percent of that $3 billion goes through U.N. 
mechanisms. About $750 million goes to NGOs through a joint 
effort really in terms of collaboration. You know our No. 1 
humanitarian objective in this crisis is to get as much aid 
through as many channels as we possibly can. Whoever is best 
placed in certain circumstances are the ones that we ask to 
deliver, obviously, to the extent that they are comfortable 
delivering, given all the challenges that are actually there.
    You asked, in particular, about the crossing lines and 
cross-border, Ranking Member Deutch. Since the resolutions have 
passed in the Security Council, we have had about 54 of those 
AID shipments reach about 600,000 people in terms of the cross-
border efforts. That doesn't mean that we are keeping up with 
need, though. So, I don't want you to be left with a good news 
story. The needs are vastly outstripping the humanitarian aid 
that we are able to provide.
    Tom mentioned the enhanced monitoring. We, too, on the 
U.N., at least the U.N. Refugee Agency and others that we 
support, have asked for enhanced monitoring plans.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Clements. In terms of diversion----
    Ms. Ros-Lehtinen. My time is up.
    Ms. Clements. Okay.
    Ms. Ros-Lehtinen. And we have votes on the floor.
    But would you like for me to recognize you or we will 
break? Mr. Deutch?
    Mr. Deutch. Just for one observation. We have to go the 
floor for votes.
    But before we leave, I just wanted to say that listening to 
the two of you give your testimony and respond to the chair's 
questions I think reminds us that, it is a good reminder of why 
we are proud to be Americans.
    Ms. Ros-Lehtinen. Amen.
    Thank you very much. Excellent work.
    And we will be back, and Mr. Smith will chair the remainder 
of the hearing.
    With that, our subcommittees are in recess. Thank you.
    [Recess.]
    Mr. Smith [presiding]. The hearing will resume its sitting, 
and we will be joined by Mr. Deutch, who is under a time 
constraint. I will yield to him when he comes back for any 
questions he might have.
    But let me, first of all, thank you again for the 
tremendous work you are doing in saving lives. I think 
sometimes people are very critical of foreign aid. They should 
know the robust efforts you, the administration, the Congress 
in a supportive role, are undertaking to save lives of the most 
precious and the most vulnerable people, particularly women and 
children. So, again, let me echo what we all said, I think, in 
our openings, just how grateful we all are for the work that 
you are doing for people who have been displaced, the refugees, 
the IDPs, women and children who are being savagely attacked 
and women who have been raped.
    I will never forget years ago during the Balkan wars I had 
hearings with women who had been raped. One, she was so 
traumatized and she thought she could handle speaking what 
other women were experiencing during the Balkan wars. Bianca 
Jagger was actually here as well speaking to that. And she 
froze; she couldn't speak. She had been so utterly traumatized.
    And I know you are helping women who have been so 
horrifically violated. So, thank you for that as well.
    I do have a question. Secretary Clements, Deputy Assistant 
Secretary, you mentioned with regards to the vaccination 2.9 
million children require lifesaving vaccinations. I wonder if 
you could break that out a little bit. They have not gotten it 
or some of those have already received it? What vaccinations 
are we talking about?
    I have always believed that vaccinations like antibiotics 
as well as anesthesia are among the wonders of the world in 
terms of how they mitigate disease and pain. So, the question 
would be, 2.9 million, what are they lacking and what is being 
done to try to get those vaccinations to them?
    Ms. Clements. Thank you very much, Chairman Smith, and 
thanks for your kind words.
    I have to say, to follow up on a point that the ranking 
member made before he left, it is a moment to be proud as an 
American in terms of what the U.S. taxpayer is doing to help us 
provide this kind of humanitarian aid to so many people in 
need. We deeply appreciate that.
    In terms of the vaccination question--and we can take that 
and get some more granularity for you certainly----
    Mr. Smith. Great.
    Ms. Clements [continuing]. But between USAID and the State 
Department's humanitarian programs, both inside Syria as well 
as in the neighboring countries, a very strong network of 
health providers. And obviously, through UNICEF and through the 
World Health Organization, with a large number of implementers, 
there has been a great effort underway to try to vaccinate as 
many kids as possible. I can speak more to the refugee side of 
things in terms of in the neighboring countries, but it is a 
core part of the health services that we are providing every 
day.
    Mr. Staal. Yes, thanks for that question. It is important.
    I mentioned the polio vaccination, and that an indication 
that they are actually able to get out to a lot of places that 
you might not think they could. It is still not perfect, and we 
continue to try to get as far as we can.
    Last week when I was in Jordan, I visited one of our 
implementing partners. They have been able to establish and are 
continuing to expand their network of field hospitals and 
clinics in opposition-held areas from across the border. That 
is another way we can start to push out the reach of 
healthcare, including vaccination. But that is a critical 
issue, yes.
    Mr. Smith. Let me ask you a question. I mean, we all know 
from history that the Spanish flu epidemic, of course, had 
nothing to do with Spain, but it was a terrible pandemic. 
Following World War I, it infected some 500 million people. The 
estimates are upwards of 50 million, some say more, some say 
less, actually died, 5 percent of the world's population.
    Health services have been disrupted with more than 73 
percent of hospitals, 27 percent of primary healthcare 
facilities, and 65 to 70 percent of the pharmaceutical 
companies out of service. A couple of weeks ago, I met with Dr. 
Peter Hotez, who has been here before to testify. He is the 
leader on neglected tropical diseases. As a matter of fact, I 
have a pending bill that we wrote with his very, very 
insightful suggestions on what it should look like.
    But I know he has said that he has concerns that a pandemic 
could arise out of Syria or the region, war conditions, lack of 
sanitation, cholera, all the other attendant problems. The 
longer this conflict goes on--and again, the Spanish flu 
occurred near the end or at the end of all of the blood-letting 
in World War I. I am just wondering what your thoughts might be 
on that. I know we are far more advanced than they were back in 
1918. But when we and people like you don't have access to 
contested areas or healthcare workers are being killed simply 
because they are trying to assist, it makes it harder and these 
things could happen. What are your thoughts on that?
    Ms. Clements. I wonder sometimes whether or not you have 
read so much into my bio that you know that my husband works on 
pandemic preparedness at USAID, actually.
    In terms of this, obviously, it is a huge concern. You 
know, with the war that has raged on now for over 4 years, the 
concern in terms of the health system inside Syria, losing 30 
years in that time at least. As you well know, the medical 
facilities and the personnel delivering those services have 
been under attack. Until very recently, actually, even in some 
of the cross-border/cross-line operations, some of the partners 
we are trying to get aid out to could not put any kind of 
medical health into their kits, into the aid that they were 
delivering in communities. So, it is a real concern.
    I think we do the best we can in terms of the areas we can 
access. I think our support systems are much stronger in the 
neighboring countries; in Jordan, in particular, in Lebanon, 
and the Iraqi Kurdistan region, and so on, in terms of what we 
are trying to do. Obviously, Turkey has done a tremendous 
amount on the health side. But that is something that we need 
to continue to work on, to try to prevent what you have just 
outlined.
    Mr. Staal. And I might add, it is all the more reason why 
it is important that this U.N. resolution last year, 2165, 
being able to work across borders, so organizations like WHO, 
then, can move across those lines of conflict. We need to 
continue to support that.
    The other maybe helpful mitigating factor is that Syrians 
are used to getting vaccination and they demand it. Okay? Some 
refugees we work with or people in underdeveloped countries are 
not used to it. They are used to it. And so, they are looking 
for vaccination, and that does help mitigate some of the 
problems.
    Mr. Smith. Ranking Member Deutch?
    Mr. Deutch. Thank you, Mr. Chairman.
    Thanks again to both of you and thanks for being so patient 
and for allowing us to do the other part of our job.
    Ms. Clements, I would like to ask you about another issue 
that I have raised several times in this committee. What are we 
doing to increase our support from the international community? 
It is really frustrating, as I said in my opening statement and 
as you referred to as well, it is frustrating to learn that 
last year's U.N. appeal was only 50 percent funded. It is clear 
that, even if there is a political agreement, if there were a 
political agreement tomorrow in Syria, the humanitarian crisis 
is going for years to come. So, how do we get our partners 
around the world to not only to continue to care about the 
humanitarian crisis and talk about the humanitarian crisis, but 
to actually do their part to help alleviate the suffering?
    Ms. Clements. Thank you very much, Congressman.
    This is the key issue. We have in terms of the Syria crisis 
right now appeal levels of $8.4 billion. I mean, that is more 
than $2 billion more than last year. We are approaching a year 
where we are dealing with--and we have talked about this a 
little bit--the global humanitarian crises. We have Sudan. We 
have C.A.R. We have Iraq. I mean, all of that adds to the 
attention that is being diverted somewhat from this crisis. So, 
I think it is very important, for example, for this hearing to 
take place and to continue to bring attention to it.
    We have worked very hard with other governments, with 
traditional and non-traditional donors, to try to increase 
support. Obviously, we continue that effort. Tom and I were 
actually in Kuwait City about 10 days ago at a top donors' 
group meeting that was hosted by Kuwait to try to bring 
attention to the Syrian response, what we are going to do this 
year, and perhaps even more importantly, what comes next year 
and the year after. Given that this is going to be protracted, 
we need to continue that support, for example, to Jordan and to 
the other neighbors that are shouldering the burden.
    So, it is a very high priority. There is a lot of 
engagement at very senior levels of our Government, and that 
will continue.
    Mr. Deutch. And what is that? What is the response? I 
appreciate that there is engagement.
    Ms. Clements. I think, as I outlined in terms of the number 
of crises, the places that we are asking people to put their 
money, unfortunately, it is increasing rather than decreasing. 
We have seen, for example, Saudi Arabia, when WFP, as you 
mentioned in your opening statement, had their fundraising 
campaign in December, it was Saudi Arabia that stepped forward 
with I think $72 million to help to close that gap. That was 
unexpected.
    We just saw the EU last week announce a $1 billion package 
for both development and humanitarian support. The UK, the 
visit of Prince Charles and the Secretary of State, just 
announced another 100 million pounds.
    So, we are seeing donors step forward. The problem is we 
are not able to get to the levels, the astronomical levels, now 
in terms of trying to meet the need.
    Mr. Deutch. Okay. I would just make the observation that we 
are about to begin a debate about AUMF to combat ISIS. We are 
devoting an enormous amount of resources on security in the 
region already, in addition to the security arrangements that 
we have within the region that benefit, in particular, those 
countries that we have asked to step up in providing 
humanitarian assistance. I trust that in terms of engagement 
that those points are made loudly and clearly to our allies 
when we have those discussions.
    Mr. Staal, I want to return to a topic that I focused on in 
each of the hearings that we have had on humanitarian needs. I 
would just love an update. That is the issue of branding.
    Chairman Ros-Lehtinen and I visited the Zaatari Camp in 
Jordan this past summer, and we saw temporary housing stamped 
with a green flag, the Saudi Arabian flag, many other donor 
countries. We didn't see a lot of U.S. flags. And I understand 
the difficulties of branding inside Syria, and we would never 
want to put AID workers at risk. But in refugee camps and in 
communities, have we increased U.S. branding, so that the 
Syrian people know that they have the full support of the 
United States?
    Mr. Staal. Yes, thank you very much for that question, 
Ranking Member Deutch.
    It is an issue that we continue to discuss with our 
partners. As you mentioned, inside Syria it is very dangerous. 
And so, we don't require that.
    Within the surrounding countries, we are asking them to 
step up their branding. It may not be on every bag because some 
of that goes into Syria and some doesn't. So, it is difficult 
to differentiate. But at least to put up more signs around and 
portray that.
    Also, just in discussions with the officials who are 
working in those camps to make sure they understand where the 
assistance is coming from, and, in fact, we are able to do that 
even inside Syria, in a quiet way to let people know the local 
organizations that we are working with, where it comes from, to 
get the word out.
    Mr. Deutch. All right. Great.
    Ms. Clements?
    Ms. Clements. A quick add, because we are very familiar 
with the Zaatari example. We have had a number of discussions, 
actually, with UNHCR, Andrew Harper, in particular, about the 
visibility issues related to Zaatari.
    The challenge has been, as soon as a U.S. flag goes up, it 
comes down. And so, we have a requirement, actually, in our 
contributions that U.S. flags should be on items that we have 
actually supported, particularly, for example, in Jordan and 
northern Iraq, places where it is quite safe and we want to get 
the word out. But it is a challenge keeping it visible for 
extended periods of time.
    Mr. Deutch. Okay. I appreciate it.
    Thank you to the witnesses. Again, I would just ask if you 
would please pass on our sincere thanks and appreciation to all 
of those on whose behalf you appear here today. Thank you.
    Mr. Smith. Thank you very much.
    Mr. Meadows?
    Mr. Meadows. Yes, thank you, Mr. Chairman.
    And thank each of you for being here. This particular issue 
is not as telling from a standpoint of getting the American 
people to act as perhaps other things that we see on TV on a 
regular basis. But, yet, when it comes to asking for people to 
give, either personally or allow their government to give on 
their behalf, it is the one thing that typically can unite 
people on both sides of the aisle.
    The American people are very generous and caring and giving 
people. It is hard for them, Ms. Clements, when you make 
statements like, well, the American flag goes up and it gets 
ripped down. It also makes it very difficult for a lot of 
people to continue to say, why give money for humanitarian 
purposes when they don't care?
    So, getting back to the branding issue that the ranking 
member was talking about, I think it is important for us to 
tell the stories of the impact on the lives that we really are 
affecting. Because not only in Syria and Jordan and some of the 
other places where the refugee and the migration from this 
conflict is huge, we are making real-life differences to moms 
and dads and kids. We have got to do a better job of sharing 
that, if we can.
    And so, I guess my question to both of you is, how, as a 
Member of Congress, can we do that? As either NGOs or the like, 
how can we do a better job of thanking the American taxpayer 
back home and telling the stories? I mean, we see ads all the 
time of starving children, and people willing give because they 
believe that they are making a difference. How can we do a 
better job of that?
    Ms. Clements. Thank you very much, Congressman.
    I actually could not have said it better than the way you 
just did in terms of telling individual stories. Because I 
think with the way that this war has raged on and the number of 
people it has affected, that, unfortunately, the public has 
become numb to the numbers. And so, to try to pull out those 
stories of people who are actually assisting and what important 
work the partners that we are supporting are providing every 
day under difficult circumstances, to try to disentangle saving 
lives from the broader morass of extremist takeover of certain 
communities and Assad's aggressions, and that sort of think, if 
we can keep it focused very much on the lifesaving, we might 
have a better chance.
    Unfortunately, we have those pictures to go along----
    Mr. Meadows. Sure.
    Ms. Clements [continuing]. With the devastation. But the 
individual stories I think tell the best story.
    Mr. Meadows. Okay.
    Mr. Staal. If I might add, Congressman Meadows, thank you 
very much for that question. It is sometimes tough. I know I 
have got relatives back home and they ask, okay, what is 
happening with all this assistance? You know, there is a big 
story and, then, there are the individuals. As you say, that is 
so important.
    In the big story, even though you have got 12 million 
people displace, yet there has been really no major 
malnutrition problems. We had a small outbreak of polio, but 
that was quickly stopped. And so, from a lifesaving thing, 
nobody froze to death because of the winter. We were able to 
get winterization. So, on a big scale, actually, it is pretty 
good.
    Then, even in our protection programs, for instance, we 
have been training women in peacekeeping. It has actually made 
a difference. Okay? There is a place like in what they call Rif 
Dimashq--it is sort of the rural areas around Damascus--with 
women peace circles, they were able to negotiate 20-day 
ceasefires.
    In the eastern Kurdish region, the women negotiated an end 
to price-fixing that some of the merchants were doing. So, they 
were able to step in and make a real difference to people on 
the ground that way.
    Then, when I visited the hospital in northern Jordan where 
they are getting refugees coming out who have been injured, it 
is not only medical support, but we are actually providing 
psychosocial support. I visited with a small child that had 
been injured. Obviously, they had not only the physical 
injuries, but the psychological injuries. Part of our work was 
supporting and training women who, then, provide psychosocial 
support to that child, so that their issues can be dealt with.
    Mr. Meadows. Well, let me close with a sincere thank you 
for your work, but also a request. On those individual stories 
like the story you just shared, if you can get that to 
committee, most of the Members of Congress can tweet out, 
Facebook out, and reach hundreds of thousands of people.
    Mr. Staal. Sure.
    Mr. Meadows. And if we can help tell that story, because if 
we don't, the American people will grow weary of giving. If 
they don't see that they are making a difference, it will 
become very difficult to continue to fund worthwhile projects.
    So, thank you both.
    And I yield back. I thank you for your leadership, Mr. 
Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows.
    Mr. Higgins? Oh, he left. I am sorry.
    Ms. Frankel?
    Ms. Frankel. Thank you, Mr. Chair.
    I thank you for your service and for your testimony today.
    I know that humanitarian aid, by its nature, the purpose is 
to save lives and alleviate suffering, maintain human dignity. 
I was interested in your discussion with Mr. Deutch because I 
have heard people say that, if you give them food and medicine, 
that helps shape people's minds also.
    So, my question is the overriding goal of trying to defeat 
ISIS and Assad, and so forth, I want to understand how the 
humanitarian aid plays into that. Do the folks who are 
receiving the aid, do they know that it is coming from--do they 
have any idea where it is coming from? And this humanitarian 
aid helps shape their thoughts or ideas, in your opinion?
    Mr. Staal. Yes, thank you. That is an important question, 
not always easy to quantify. Certainly, through our aid 
programs, even within Syria, our partners are working through 
local organizations. They make sure that the local 
organizations know, even though it is not branded, that they 
know that it is coming from the U.S. and that it is U.S. 
taxpayers that are providing the funding for that. So, the word 
is getting out, not as much as we would like, and it is an 
ongoing challenge, but I think that it is important.
    I think part of it is, yes, you have to provide the 
immediate humanitarian assistance, but you also need to do it 
as much as possible in a way that protects their dignity. Okay? 
And so, we are trying as much as possible to move to a system 
of distribution of our assistance that just doesn't make them 
totally dependent on handouts.
    So, that is part of the reason we have gone to these ration 
cards. I actually have one in my pocket here. That way, instead 
of getting a bag of rice and a can of vegetable oil, they get a 
card. They can go to a supermarket and buy the goods that they 
think they need. That gives them a little feeling of dignity, 
and, of course, it helps the local economy.
    Ms. Frankel. May I just change--oh, wait, you can answer 
that. Why don't you answer the other question that I have also, 
which is this: In terms of our AID workers, first of all, do we 
have AID workers in Syria? Given what we just saw happen with 
Kayla Mueller, I think we all have a concern whether our AID 
workers in the region are safe. Could you also speak to that?
    Ms. Clements. Maybe if I could just respond to the last and 
let Tom----
    Ms. Frankel. Yes, please do that.
    Ms. Clements [continuing]. Respond on the other?
    I think it was Congressman Boyle that mentioned this being 
a regional issue. Often, when Tom and I are talking about 
Syria, we will talk about Iraq, too, because we do actually 
view this as very much a regional issue.
    We, in terms of the anti-ISIL fight, humanitarian support 
is one of those lines of efforts, but it is not to battle ISIL. 
It is to aid those victims and those people in need. So, we try 
very much to keep it as a needs focus as opposed to part of the 
fight. So, it is a distinction that is very important to 
protect the safety of humanitarian workers, allow us to 
continue to save lives. I just wanted to make that clear.
    Ms. Frankel. Good. Okay. Thank you for that.
    Can you answer the question on the safety?
    Mr. Staal. Yes, thank you, Congresswoman Frankel.
    Certainly, it is a dangerous place. I think I mentioned in 
my written testimony 150 humanitarian workers have been killed 
over the last 3 years. It is something that we continually have 
on our minds.
    The partners that we are working with and through, both 
U.N. and international NGOs, are all ones that are well-
experienced in working these kinds of regions and these 
conflict areas. So, they are even more careful than we are.
    They work primarily through local partners, the NGOs. Some 
of the U.N. folks are there in Damascus, especially in the 
government-held areas. But in the opposition areas it is 
primarily the NGOs. They, in turn, work through local 
organizations. So, there are very few of our international 
staff going in. It is more focused with the local organizations 
who know the scene.
    Ms. Frankel. And this is in Syria?
    Mr. Staal. In Syria, yes.
    Ms. Frankel. Thank you, Mr. Chair.
    Mr. Smith. Thank you, Ms. Frankel.
    The Chair recognizes Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate your testimony today.
    You were stating that America is largest single donor in 
that region, and then, Mr. Staal, you were saying that you 
have, in virtually all the places you have looked, you have not 
found people starving. Did I understand that correctly. But are 
you talking about the refugees that are outside of Syria or the 
ones within Syria that you work with? Because reading my notes 
here, it says there are a lot of nutritionally-deprived people 
there. What is the dichotomy of the difference there visibly? I 
mean, is it distinctive?
    Mr. Staal. Yes, thank you very much, Congressman Yoho.
    It is an important distinction. Certainly, within Syria 
they are worse off than outside of Syria, and they are 
nutritionally-deprived, but they aren't to the point of 
starvation.
    Mr. Yoho. Okay, and that leads into my other question.
    Mr. Staal. Yes.
    Mr. Yoho. When you are going in and trying to get access 
into Syria, are you running--I mean, you have got to worry 
about the Assad government forces and, then, you have got to 
worry about Freedom Fighters and ISIS and all those other ones.
    It just seems like one of the things I have seen on these 
other meetings that we have had, in particular, I think it was 
Afghan last year when we were talking to Dr. Shah. He said that 
Afghan was allocated or appropriated $1 billion in foreign aid 
through USAID, but they couldn't account for $300 million.
    As you are going from taking our aid--and I would feel a 
lot better if it was branded. That is the American taxpayers' 
money, and I agree with these other people that, if we are 
sending our money over there, well, I think they need to know 
where it is coming from. I know that is an issue in itself 
because it causes resentment. But, as you go into those areas, 
what are the biggest obstacles you are running into to make 
sure that we have accountability of those products, or whatever 
it is you are taking in there, and that it is not falling into 
hands where they are using it to raise revenues?
    Mr. Staal. Yes, thank you. That is an important issue that 
we track very carefully.
    The branding issue, it is less about the resentment; it is 
more about the protection of our partners. Because if they are 
seen as working for the Americans, then that could put them in 
danger. So, that is the real issue, rather than the resentment 
issue.
    Mr. Yoho. How do other countries handle that? This is 
another question. We have given $3 billion since the beginning 
of this. The collection of other countries, have they come 
close to that as far as monetary input? Ms. Clements?
    Ms. Clements. Sure. Actually, we are about 30 percent of 
the overall giving last year, was from the United States.
    Mr. Yoho. Okay.
    Ms. Clements. And collectively, we are, obviously, the 
largest single donor. But, no, it is burden-sharing.
    Mr. Yoho. Okay. So, you are seeing other countries step up 
and help out?
    Ms. Clements. Yes.
    Mr. Yoho. This is only going to get worse until we have a 
resolution to the problem within Syria. I think it is going to 
wind up being a regime change, which at this point I think the 
rest of the world would be safer off and the people of Syria, 
obviously.
    When you are going in and you are putting in, say, water, 
are you building infrastructures or are you just taking 
supplies in, like bottled water? I saw you had Jerrycans and 
all that stuff. Are you putting in wells, septic tanks, or 
sewer systems?
    Mr. Staal. Yes, that is a critical question. Thank you very 
much.
    We are, indeed, putting in some small-scale infrastructure 
as much as possible, where we can, in opposition-held areas and 
even in some of the government areas. But it is at a small 
scale, but, certainly, we are doing it, both water and other 
types of local infrastructure, repairing health clinics, 
schools, things like that.
    Mr. Yoho. Okay, and when you go in there, like in a host 
country that is housing the refugees, is the government working 
with you or are you finding them an impediment of making the 
situation better?
    Mr. Staal. No, I was just referring now to within Syria.
    Mr. Yoho. Okay.
    Mr. Staal. But, certainly, in the surrounding countries, in 
Jordan, in Lebanon, and other, the neighboring countries, we 
have really stepped up our programs. In Jordan, for instance, 
we have even put in a second Deputy Director for USAID and 
increased our assistance to the Jordanians to build up their 
systems to handle this big, huge influx.
    Mr. Yoho. Okay.
    Mr. Staal. So, you know, additional schools, additional 
water systems, and so on.
    Mr. Yoho. Well, I appreciate the work you are doing--and I 
will get right back to you--that you are doing. If you could 
over the course of the work you do over the next, let's say, 2 
or 3 months, let us know what we can do better here to help you 
do better there, especially on the accountability, so that we 
are not wasting our money.
    Ms. Clements, you had something to say?
    Ms. Clements. Thank you. We really do appreciate the 
support. It is hugely needed.
    Just on the water issue, both inside Syria--Tom had 
mentioned part of it, but I will give you an example. The 
International Committee of the Red Cross, for example, has 
worked very closely to try to put stop-gap measures in place to 
actually make clean water available for about 10 million 
people. This is not building big waste treatment plants, that 
sort of thing. It is just trying to get the system that 
currently exists to function. So, that is just an example of 
support that has been tremendously important, yes.
    Mr. Smith. Mr. Yoho, thank you.
    In follow up to your question, could you provide the 
committee a breakdown of what each country has pledged and how 
much they have actually lived up to their commitment? And 
secondly, for this new round, what countries are pledging, so 
we can get it? I mean, 30 percent is certainly very, very 
generous on the part of the American public, the 
administration, and Congress, but it would be nice to know 
where the laggards are and where those--as you mentioned, Saudi 
Arabia stepped up on the food issue. So that we have contacts, 
all of us, all the time with people from these countries. It 
would be good to say, ``Hey, do more'' or ``Well done.'' So, if 
you could provide that, that would be very helpful.
    Mr. Staal. If I can just respond to that, Chairman Smith, 
at the end of March, the Kuwaitis have already invited the 
donors to come to Kuwait for a major pledging conference for 
Syria and the neighboring countries. We are already encouraging 
our friends out there to be ready to step up with some major 
contributions.
    Mr. Smith. Would a letter from Members of Congress, a 
bipartisan letter, be of any help in terms of backing what you 
are trying to accomplish?
    Mr. Staal. Yes.
    Mr. Smith. If you could give us some insights on how you 
think that might boost the aggregate----
    Mr. Staal. Right.
    Mr. Smith [continuing]. It would be----
    Mr. Staal. Especially to the parliaments of some of the 
countries that we work with, yes.
    Mr. Smith. Okay. Very good point.
    Ms. Frankel?
    Ms. Frankel. Thank you again.
    I have a different point of view here. So, yes, thank you 
again for your testimony.
    I wanted to just follow up on a line of questioning that I 
had when I was sitting at the other end of the table. This is 
one way to move up in rankings, right? Send everybody else 
away.
    I think I understand your testimony of separating the 
humanitarian effort from the fight against certain forces. So, 
my question is in Syria, for example, ISIL or Assad, are their 
forces, do they try to keep the humanitarian aid from getting 
to the Syrians? That is one question.
    Mr. Staal. Yes, that is a very important question, and it 
is something we watch carefully and our partners, again.
    As I mentioned earlier, we actually have some pretty robust 
systems that are really tracking our aid very carefully, 
literally truckload-by-truckload that goes in there. And so, we 
have a very good idea of where it is going.
    There has been very little pressure really to divert or try 
to control it. When it does happen, the partners we are working 
with, they are experienced. They have worked in Afghanistan, in 
Iraq, in South Sudan, in Somalia, and places like this. So, 
they push back very hard.
    If it gets to the point where they feel they have to pay a 
bribe or allow some of it to go to a local official, they will 
just stop, and we don't go into that town. That has happened. 
There are times when we just say, okay, we can't work there. 
But, then, the surrounding towns continue to get it, and then, 
we find they come back and say, okay, well, we will let it in 
after all.
    Ms. Frankel. Did you want to respond to that? Yes.
    Ms. Clements. I would. I would. Thank you very much.
    Yes, they are inhibiting humanitarian aid workers from 
delivering aid. Just to give you an example, we talked earlier 
in the hearing about those in besieged areas, about 212,000 
that are in besieged. About 145,000 of them are besieged by the 
regime. So, they are not allowing aid workers or aid 
organizations to get in.
    We probably come closest to your example of starvation in a 
place like Yarmouk, the Palestinian refugee camp, where it has 
been extremely difficult, for example, for the Palestinian U.N. 
Agency to get in and actually provide health and food, and so 
on.
    So, it is administrative obstacles, bureaucratic obstacles, 
you know, bombs, barrel bombing in terms of just not being able 
to get into key areas. But it has been a huge issue.
    Thank you.
    Ms. Frankel. And in the surrounding regions, which 
countries are actually helping you or assisting, both with 
resources, but actually are friendly toward the efforts?
    Ms. Clements. We are so fortunate to have the neighbors 
that we do surrounding Syria. I mean, we could go through them 
one-by-one, but Jordan, first and foremost, 650,000 registered 
refugees, probably many more that are in communities. Most are 
being supported outside of those two camps that are in Jordan. 
Billions of dollars spent in terms of GDP or lost economic 
revenue, and so on.
    There has been a tremendous outpouring of generosity and 
support from these neighbors to welcome refugees in, but the 
welcome mat is starting to wear thin because of how many 
refugees there are and the needs and the burdens, and so on, in 
terms of the economic system and the infrastructure and water 
and health, education, you name it. But I think in every 
circumstance of those five we have support from the government 
in terms of being able to help us help them in terms of 
responding to these massive needs.
    Ms. Frankel. So, I think what I hear you saying, also, is 
that--and you may have said this before--is that this 
humanitarian aid not only is to reduce suffering and dignity, 
and so forth, but giving relief to some of these neighboring 
countries that will prevent their destabilization. Okay.
    Ms. Clements. It is a really important point, 
Congresswoman, because we try very hard not just to target aid 
toward the refugees or the displaced, but also the host 
communities. And aid in state programs in the partners we are 
serving, it is very much a dual approach because we do not want 
to increase tensions, and we see tensions rising. As you said, 
it is absolutely essential for regional stability.
    Ms. Frankel. Thank you very much, Mr. Chair. I yield the 
rest of my time.
    Mr. Smith. Just a few final questions, and then, if my 
colleagues have any further, if you would answer those?
    As I think you may know, I am the prime author of the 
Trafficking Victims Protection Act of 2000. It is a very 
aggressive law that seeks to prevent/prosecute traffickers and 
protect women and children especially who are overwhelmingly 
the victims.
    Syria is a Tier 3 country. In the recommendations page of 
the TIP Report, it talks about child soldiers. I am wondering 
if you could shed any light on how many child soldiers we are 
talking about from either side or any side.
    In your testimony, Mr. Staal, you very strongly pointed to 
the barbarity of selling girls as young as 12 into sex slavery. 
I am wondering if any of those girls are being rescued. How 
many are we talking about, just like how many child soldiers 
are we talking about? Is there any guesstimate as to how much 
of this abuse is going on?
    And what happens when there is a rescue? You know, some 
young 12-year-old who has been so brutally abused finds their 
way particularly in the area of psychological treatment. You 
mentioned that generally before, those who are suffering trauma 
of war.
    And I am wondering, too, an additional question: Is our 
response integrating a faith-based response, Muslim or 
Christian, with best practices for psychological help? You 
know, one of the things I have learned being in trafficking 
shelters all over the world is that the healing process, the 
sense of personal reconciliation with the trauma and coming to 
a point where you reconcile with that you are a victim, you are 
not in any way responsible for this, happens more effectively 
in a faith-based setting where there is also the best 
psychological practices by psychologists or psychiatrists being 
employed. I am wondering what we are doing along those lines. 
And again, if you could, speak to the trafficking part. Mr. 
Staal?
    Mr. Staal. Yes, thank you. Critical issues that you raise, 
Chairman Smith.
    As I mentioned, in all of our humanitarian assistance 
programs we include protection issues. In addition to that, we 
have put in $26 million specifically in protection programs, 
gender-based violence issues, child protection, and so on.
    Included as a piece of that has been tracking abuses that 
could someday be a way of keeping records that could someday be 
used later, as you mentioned, with the ICC, or whatever. And 
then, also, the State Department DRL program is continuing to 
try to track those kinds of abuses for future issues.
    We will have to get back to you on the child soldiers. I 
don't know that we have a number on that.
    Mr. Smith. Are you coordinating with the TIP office on this 
with regards to Syria?
    Mr. Staal. Yes.
    Ms. Clements. Yes. Perhaps I can respond in terms of the 
trafficking piece because, obviously, this is something that is 
of high priority to us, as it obviously is to you as well.
    All of our programs actually have a GBV or prevention 
element. When I say that, you know, protection is important. 
There are a couple of things that we have tried to do very 
explicitly.
    Civil registration and identity documents, because often we 
find that those instances of trafficking are because they don't 
have something to be able to provide for themselves in terms of 
livelihoods, or what have you. So, we have made a special 
effort through partners to be sure that that is certainly in 
place.
    We have found that the best defense is robust assistance. 
So, making sure kids are in school, for example, that 
information is flowing in terms of the dangers of early 
marriage, these sorts of things all combined have a 
comprehensive approach to try to at least decrease the scourge.
    But, yes, in fact, I was just talking with the trafficking 
office yesterday about this very issue.
    Mr. Smith. That would be great. Any further for the record 
that you could provide on that, simply as it relates to sex 
trafficking and child soldiers, that would be greatly 
appreciated.
    You have pointed out that 85 percent of those killed are 
men. I am wondering with regard to the women, and especially 
pregnant women, are they getting to safe venues to have their 
children? Do they have access to safe blood, for example, if 
there is an obstructed delivery, to a Caesarean section, or has 
maternal mortality gone up because of the lack of that in 
Syria, the way that we have seen in other war-torn areas?
    Mr. Staal. Yes, a critical question. I think we have a 
partial answer, but not a great answer. I mean, I think there 
are still a lot of women who aren't able to get to a proper 
facility. As you have mentioned, health facilities have been 
targeted, especially by the regime. That has really reduced our 
ability to help.
    On the other hand, that is a major focus of some of our 
programs. I mentioned earlier that the hospital I visited in 
Jordan last week, they have an outreach program and are setting 
up field hospitals in opposition-held areas in southern Syria. 
And so, those kinds of things we are trying to address that 
issue.
    But, you know, certainly, in ISIL-held areas, we are not 
able to get there and provide that kind of assistance. It is an 
ongoing problem; no question.
    Mr. Smith. Just a few final questions, if I could. You 
mentioned, Mr. Staal, that history has been made in the number 
of DARTS. As you have said, four Disaster Assistance Response 
Teams and three Response Management Teams have been deployed. 
Could you elaborate on that? Because many people, particularly 
those watching, the C-SPAN audience, for example, you know, 
what is a DART?
    I have actually been in areas where they have been in 
operation, and it is amazing how effectively they coordinate. 
If you could elaborate on that?
    Mr. Staal. Yes, thank you, Chairman Smith. That is one of 
the things that I think we, as Americans, can be most proud of. 
That is a unique aspect of our humanitarian assistance that 
other countries can't do.
    That is to actually put people on the ground within hours 
and days of a crisis, whether it is a tsunami and an 
earthquake, or in this situation a conflict-related crisis. So, 
DART is a Disaster Assistance Response Team, and we send them 
out to the affected area literally within hours or days, 
sometimes even, if we know there is a big typhoon coming, we 
will send them out a day or two ahead of time.
    And they include whatever is needed in terms of technical 
specialties. They coordinate the assistance. Ebola, for 
instance, we have a huge DART there. We coordinate the 
assistance provided by CDC, the World Health Organization, 
other donors. The DART provides that platform, and it works 
great.
    The RMT, the Response Management Team, is the operation 
center back here at headquarters that provides all the support 
that responds to your questions about what is going on and to 
our leaders in the administration. So, it provides that sort of 
op center for that.
    And so, we have a DART for Iraq, a DART for Syria that has 
people both in Jordan and in Turkey. We have a DART for South 
Sudan, and then, we have the huge DART for Ebola.
    Mr. Smith. Thank you for that explanation and for that 
work.
    You point out in your testimony, Mr. Staal, that we have 
improved water and sanitation for 1.3 million Syrians in all 14 
governorates. You are absolutely right; in times of crisis, 
clean water and sanitation are critical to survival.
    How integrated or how expansive is our ORT, the Oral 
Rehydration Therapy, salts, those packets being disseminated 
for children especially, since diarrheal disease is one of the 
leading killers of children?
    Mr. Staal. Yes, thank you.
    I don't have the exact details. If you like, I can try to 
track those down.
    Mr. Smith. We would like that, yes.
    Mr. Staal. But it is certainly a part of whatever we do in 
our health, in our WASH programs where we are working. There 
are still areas we can't reach. But, as I said, I think it is 
important that our humanitarian assistance also address some of 
those sort of resilience issues, so that people are not as 
dependent on humanitarian assistance.
    If they have got clean water, then they are less likely to 
get sick. If we have got a program providing flour to bakeries 
across-line, so that people can get bread, that also helps the 
economy. So, we try to do our humanitarian assistance in a way 
that builds resilience, reduces cost, and then, reaches out to 
the people.
    Mr. Smith. You have testified that 9.8 million Syrians are 
food-insecure. Is that number declining or worsening?
    Mr. Staal. Yes, I think I will have to look at the exact 
details, but I am afraid to say it is probably worsening. Their 
situation is declining because of the scale of the crisis.
    Mr. Smith. And one final question. You have pointed out 
that, since 2011, PRM has expended $1.4 billion. Has that 
impacted funding from other programs? Have you had to deplete 
some accounts or draw down from other accounts? And have those 
accounts been replenished, whether it be in Africa or anywhere 
else, so that there is no diminution of assistance to those 
other crisis areas?
    Ms. Clements. Thank you very much, Chairman, for the 
question.
    It is thanks to you and Congress that I can that we have 
not taken funding from Africa or other important programs to 
meet some of those other mega humanitarian emergencies, because 
you appropriated a generous amount to us in 2013, 2014, and 
again in 2015. So, we appreciate that hugely. And you will see 
in terms of numbers on our congressional presentation document 
a significant upturn, not just in the Middle East, but in other 
regions as well.
    Mr. Smith. Thank you.
    Ms. Frankel?
    Ms. Frankel. Thank you, Mr. Chair.
    I want to go back to my questioning on sort of, I guess, 
the domino effects of humanitarian aid or not having it. I do 
believe in humanitarian aid, but I want to sort of just play 
the devil's advocate because of what we may hear constituents 
saying. I think some of my colleagues mentioned it.
    There is so much suffering in this world all over the 
world, including the United States of America. And so, I would 
like to hear your thoughts again in terms of, what if we did 
not provide this aid? What are some of the dominos? What would 
we see happening? What would be worse? What is the spinoff, and 
how does it affect, you know, somebody who lives in Florida?
    Ms. Clements. It is a terrific question, Congresswoman.
    In terms of not being able to provide aid, we touched on it 
a little bit earlier in terms of regional stability. I think in 
terms of humanitarian aid the best way to be able to support 
those that need to flee Syria is being able to provide that aid 
to the host communities and the neighboring countries to keep 
that protection space open, to make it possible for people, 
because it is much easier for us to assist those in Jordan and 
in Lebanon, frankly, than it is inside Syria.
    You would see an implosion. You would see massive 
malnutrition rates, for example, in terms of global acute 
malnutrition, mortality rates through the roof. Most of the 
deaths now, unfortunately, are because of the war. We would 
probably see in terms of social indicators a much larger 
humanitarian catastrophe without aid.
    Mr. Staal. Yes, and I might add, obviously, if possible, we 
want to try to get our assistance to people in their homes, so 
they don't have to flee. They need to be able to flee if they 
feel they have to, but it is better to get it there. And then, 
that reduces the strain on the surrounding countries.
    As you mentioned, Jordan is a critical partner for us. The 
same with Lebanon; we are very concerned about their 
stability--in those countries that is critical--and frankly, 
terrorism.
    You know, a young man growing up, he can't feed his family. 
He hasn't got a job. He is going to be much more open to the 
lure, if you will, of people asking him to do bad things.
    Ms. Frankel. Thank you very much. I think I got my question 
answered.
    Mr. Smith. Thank you, Ms. Frankel.
    Mr. Yoho?
    Mr. Yoho. Yes, going back to the aid that you are giving, 
when you go into the different countries, there is Turkey, 
Syria, Lebanon, Jordan, Iraq where the refugees are going. When 
you are going into the different countries, like say Turkey, 
you know, the human rights that we stand by, that we believe in 
this country, are going to be different in those other 
countries. Is that correct? You know, freedom of religion, 
freedom of expression, those kinds of things.
    And so, when Chairman Smith brought up the different areas 
of abuses, like gender abuse, women's rights, and things like 
that, how do you go about enforcing that? And is it different 
between country to country? How do we hold that government 
accountable?
    Mr. Staal. That is an interesting and important question, 
Congressman.
    I can't remember whether it was you or Chairman Smith who 
asked about working with faith-based organizations. We do work 
with that. In fact, Ms. Clements and I visited with the 
Archbishop in Kurdistan when we were there to talk about the 
work they are doing. I know the King in Jordan has been very 
open and meeting with different religious leaders, both from 
sort of an Islamic perspective to reduce the lure of the ISIL, 
but, also, how do we work with the various religious groups?
    And Syria was one of the most tolerant countries in the 
entire Middle East before all this took place. So, it is 
important, but there are many groups there that we work with. 
And that is a way to try to reduce the tension that is going 
on.
    Mr. Yoho. But is there a way to hold those areas that you 
have the refugees in--you know, they are going to school and 
they are being abused with whatever type of abuse it is. You 
know, the human trafficking thing is just unconscionable. But 
gender abuse, we will say that, how do you go about making--you 
said you are helping those countries deal with that and you are 
trying to make sure that they are protected, but how do you go 
about holding that country or that government of that country 
accountable? If we are in there giving aid, helping out a bad 
situation, and they are not living up to that standard, what do 
we do as far as holding those people accountable? Or do we not 
get into that?
    Mr. Staal. Well, we do in the sense that there are 
international standards that these countries have signed onto 
through U.N. Conventions, and so on. And so, that is one 
advantage, if you will, with working through the U.N. system, 
is we can hold them accountable for those standards.
    Mr. Yoho. Do you feel it is working or is it something that 
we talk about and, then, we turn a blind eye to it, saying, 
``Well, we dealt with it. They are supposed to be doing it,'' 
but we know it is not getting done? I mean, I have seen that in 
other parts of the world. I mean, is that what you are seeing 
over there?
    Ms. Clements. Maybe to give an example of trafficking cases 
or smuggling cases, or what have you, normally, the aid 
partners we would work with, if those cases are brought 
forward, they would work with the local authorities in terms of 
ensuring followup.
    Or, for example, refugees are detained, seeking access, for 
example, to prisons, to find out whether or not that was a 
rightful detention or what the due process is for that case to 
be able to be made. That is part of the protection part of what 
the organizations do that we support.
    I think the broader issue, as Tom has laid out, as part of 
our dialog, I think, goes well beyond the humanitarian sphere, 
but obviously connected.
    Mr. Yoho. Okay. Then, Mr. Staal, you had brought up that 
there has been approximately 150 aid workers killed. Does that 
take into account missing ones? Is there a number of missing 
people that more than likely could end up as hostages and we 
will see them on TV one day? And we will regret seeing that. Do 
you have a sense for how many that are unaccounted for that 
were aid workers?
    Mr. Staal. Yes. As far as we know right now, there are 
certainly no Americans held that are unaccounted for that we 
know of.
    Mr. Yoho. Okay.
    Mr. Staal. Most of those 150, frankly, are local Syrians 
who are working with different organizations that we support.
    Mr. Yoho. Okay.
    Mr. Staal. And so, it is that way, yes.
    Mr. Yoho. I appreciate your time.
    Mr. Chairman, thank you for the extra time, and thank you.
    Mr. Smith. Thank you very much, Mr. Yoho.
    Thank you again, Mr. Staal, Ms. Clements, for your 
tremendous leadership, for providing the two subcommittees with 
your very fine insights and incisive testimony. It does help 
us. Of course, by extension, we then brief other Members of 
Congress. So, thank you.
    You are saving lives every single day, and I do think the 
American public--I have traveled with some DART teams. I 
remember after the tsunami I was in Sri Lanka. We went from 
Banda Aceh to Sri Lanka. I was in the van with the DART teams, 
and I have never been more proud of people who were just 
absolutely can-do, trying to make the situation better for 
those who had lost life as well as property during that 
terrible tsunami.
    So, thank you for your leadership.
    The hearing is adjourned.
    
    [Whereupon, at 3:38 p.m., the meeting was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 

Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
            Subcommittee on the Middle East and North Africa
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
